June 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, DC 20543
Re:

Arlene’s Flowers, Inc., et al. v. State of Washington and
Arlene’s Flowers, Inc., et al. v. Ingersoll, et al., No. 19-333 –
Letter Brief of Respondents Robert Ingersoll and Curt Freed
in Response to Supplemental Brief of Petitioners

Dear Mr. Harris:
Respondents Robert Ingersoll and Curt Freed respectfully
submit this letter to the Court in response to the Supplemental Brief
of Petitioners filed June 18, 2021.
Petitioners’ supplemental brief, ostensibly triggered by this
Court’s decision in Fulton v. City of Philadelphia¸ No. 19-123 (U.S.
June 17, 2021), offers no additional reason for granting certiorari,
and instead largely retreads the ground—and cases—addressed in
earlier briefing. The Court should deny certiorari.
Nothing in this Court’s recent decision in Fulton altered the
settled free exercise principles the Washington Supreme Court
applied below or requires any reconsideration by that court. Fulton
announced no new law. Rather, it applied Sherbert v. Verner, 374
U.S. 398 (1963), and Church of Lukumi Babalu Aye, Inc. v. Hialeah,
508 U.S. 520 (1993), and concluded that the city contract at issue
was not generally applicable because it provided “a mechanism for
individualized exemptions.” Fulton, slip op. at 5-6 (internal
quotation marks omitted). Washington’s Law Against
Discrimination, by contrast, contains no such mechanism for
individualized exemptions—even the Flower Shop does not contend
otherwise—and is generally applicable, as the Washington Supreme
Court concluded after thorough review. Pet. App. 50a-56a.
Accordingly, Fulton offers no occasion for a GVR, let alone a grant of
certiorari.
Nor does this case present an opportunity to consider whether
to overrule Employment Division v. Smith, 494 U.S. 872 (1990).
Because application of the Washington Law Against Discrimination
to a public-facing business, such as a flower store, would survive

even the most searching form of judicial review, Opp. 30, this case
does not present the question whether to overrule Smith and, even if
it did so, presents a poor vehicle for choosing among the many
possible standards the Court might adopt in place of the analysis in
Smith. See Fulton, slip op. at 1-2 (Barrett, J., concurring).
Tellingly, even the Flower Shop does not contend that Fulton
provides a new basis for review. Instead, it devotes virtually all of
its brief to rehashing arguments and appellate decisions already
raised and briefed in 2019. That is not a proper basis for a
supplemental brief under Rule 15.8. Sup. Ct. R. 15.8 (providing that
any party may file a supplemental brief while a petition for a writ of
certiorari is pending “calling attention to new cases, new legislation,
or other intervening matter not available at the time of the party’s
last filing” (emphasis added)).
Just as there was no basis for certiorari in 2019, there is no
reason to grant the writ now. Respondents Robert Ingersoll and
Curt Freed filed this action in 2013 after the Flower Shop refused to
sell them flowers for their wedding. Opp. 3-5, 7. They intended to
pick up the flowers themselves. Opp. 4. No one from the Flower
Shop would have been required to participate in their wedding, and
the injunction Mr. Ingersoll and Mr. Freed eventually obtained does
not require Flower Shop staff to do so for any other customers,
either. Opp. 8-9, 12-15.
Two years after it filed its reply, the Flower Shop remains
unable to point to any conflict among the circuits. Instead, it points
to a handful of lower court decisions, many of them not even from
courts of appeals or state supreme courts, all faithfully applying this
Court’s precedents to different factual scenarios.
I.

The Flower Shop has not identified any intervening
appellate decisions concerning free speech, and the
Washington Supreme Court’s decision does not
conflict with the previously decided compelled
speech cases.

None of the court of appeals or state supreme court decisions
the Flower Shop discusses in its Supplemental Brief is an
“intervening” case, see Sup. Ct. R. 15.8; all were available when the
Flower Shop filed its reply brief in December 2019. Supp. Br. 4-8
(citing Elane Photography, LLC v. Willock, 309 P.3d 53 (N.M. 2013);
Craig v. Masterpiece Cakeshop, 370 P.3d 272 (Colo. App. 2015);

2

Klein v. Or. Bureau of Labor & Indus., 410 P.3d 1051 (Or. Ct. App.
2017); Telescope Media Grp. v. Lucero, 936 F.3d 740 (8th Cir. 2019);
Brush & Nib Studio, LC v. City of Phoenix, 448 P.3d 890 (Ariz.
2019)).1 They are therefore not an appropriate basis for a
supplemental brief.
In any event, the Flower Shop’s attempt to manufacture a
conflict between the decision below and decisions in Telescope Media
and Brush & Nib fares no better this time than in its prior briefing,
because both cases are distinguishable on their facts. In Telescope
Media—which was addressed extensively in the Flower Shop’s
opening brief, Pet. 6, 20, 28, 30, 31, 32, 33, 39, and reply, Reply Br.
7, 9, 10, 11—the Eighth Circuit placed particular weight on the fact
that the video company that objected to making videos of weddings
celebrated by same-sex couples “retain[ed] ultimate editorial
judgment and control” over any videos it might produce. 936 F.3d at
751. In this case, by contrast, the Flower Shop’s owner testified at
her deposition that “the customer,” not the Flower Shop, “gets the
last say” as to the product supplied. App. 43a.2 The customers are
free to arrange, rearrange, or use the flowers however they choose.
Any message conveyed by the flower arrangements thus belongs to
the customer, not the Flower Shop. Opp. 18-19. The decision in
Brush & Nib—also previously briefed by the Flower Shop, Reply Br.
7, 8, 9, 11—is similarly distinguishable, as the Arizona Supreme
Court expressly recognized in its opinion. 448 P.3d at 917. That
court, too, focused on the complete artistic control exercised by the
company, id. at 911, as well as the specific custom products in the
record, id. at 895. Opp. 19-20.
The absence of any new appellate authority belies the Flower
Shop’s claim of a split, much less one that is mature enough to
warrant this Court’s intervention. In fact, the only new authority
cited by the Flower Shop is a Colorado trial court decision, which
this Court can of course consider after the ordinary appellate
process takes its course. Supp. Br. 8 (citing Scardina v. Masterpiece
Cakeshop Inc., No. 19CV32214 (Dist. Ct., Denver City & Cty., Colo.
June 15, 2021). If the Colorado Supreme Court reaches a decision
that conflicts with decisions of other state supreme courts or federal
courts of appeals, this Court can consider at that time whether any
conflict warrants review.
Klein is also not a final decision; the case is currently pending in the Oregon Court of
Appeals. See Klein v. Or. Bureau of Labor & Indus., 139 S. Ct. 2713 (2019) (granting,
vacating, and remanding for further consideration in light of Masterpiece Cakeshop).
2 “App.” refers to the Appendix to Respondent State of Washington’s Brief in Opposition.
1

3

The Flower Shop’s focus on whether particular businesses are
expressive misses the broader point: even assuming the conduct of
arranging flowers is expressive, as the Flower Shop asks this Court
to hold, that does not trigger strict scrutiny unless the law in
question targets the conduct because of what it communicates. No
one disputes that Mr. O’Brien’s burning of a draft card to protest the
Vietnam War was expressive, but only intermediate scrutiny
applied because the law in question prohibited destruction of draft
cards whether or not the destruction was communicative. United
States v. O’Brien, 391 U.S. 367 (1968). The Washington Law
Against Discrimination prohibits discriminatory conduct regardless
of whether the product sold is communicative or not. Opp. 21.
II.

There is no split as to how the Free Exercise Clause
applies to actions of executive branch agencies and,
in any event, resolution of that question would not
alter the result in this case.

This case is an exceptionally poor vehicle for addressing how
the Free Exercise Clause restricts the actions of state executive
agencies for several reasons.
First, and dispositively, nullifying the actions of a state
executive agency—here, Washington’s Attorney General—would not
change the injunction against the Flower Shop. That is because
there were two, separate but identical injunctions entered below,
one in a case brought by the Washington Attorney General and
another in an independent civil action brought by private plaintiffs,
Mr. Ingersoll and Mr. Freed, Respondents here. Opp. 8-9. The
latter would stand even if this Court were to conclude that the
Attorney General’s action should be invalidated for any reason, such
as anti-religious animus. Opp. 27-29. The Court should not grant
review to address an issue that would not alter the outcome.3
Moreover, there is no evidence of anti-religious animus by the
Attorney General. The Attorney General initiated an enforcement
action against the Flower Shop and not the coffee shop, not because
of religion, but because the two businesses responded in radically
The Flower Shop failed to raise its claim that the Attorney General selectively enforced
the Washington Law Against Discrimination based on hostility to religion on appeal to
the Washington Supreme Court. The Washington Supreme Court held that the Flower
Shop could not revive that claim, once it was abandoned. Pet. App. 23a-24a. That
holding, on a separate question of state procedure, bars this Court from reaching the
Flower Shop’s religious bias claim. Opp. 26 n.5.
3

4

different ways to notice that their conduct was discriminatory. Opp.
25-27. Most importantly, the coffee shop readily agreed to follow the
law; the Flower Shop refused.
Finally, the Flower Shop identifies no split of authority as to
whether executive branch agencies, or only adjudicative bodies, are
subject to the Free Exercise Clause. All of the courts below,
including the Washington Supreme Court here, recognized that
executive branch agencies are subject to constitutional restrictions,
including those contained in the Free Exercise Clause, on
governmental power.
Far from suggesting the Attorney General could act in an
anti-religious manner, the Washington Supreme Court expressly
recognized that “the Washington attorney general” is not “free to
enforce the [Washington Law Against Discrimination] in a manner
that offends the state or federal constitution,” including the Free
Exercise Clause. Pet. App. 26a. The Court held that the Flower
Shop had abandoned its selective enforcement claim based on
religious hostility and that nothing in this Court’s Masterpiece
Cakeshop decision allowed the Flower Shop to revive that claim,
once it was abandoned. Pet. App. 26a.
Finally, none of the other cases the Flower Shop cites shows a
split in authority among the lower courts or holds that executive
agencies are free to engage in anti-religious hostility. Shavers v.
Almont Township, Mich., 832 F. App’x 933 (6th Cir. 2020), for
example, did not involve religion at all; in that case, the Sixth
Circuit fully evaluated evidence of discrimination based on race by a
municipal planning commission. Carson v. Makin, 979 F.3d 21 (1st
Cir. 2020), also does not hold that an executive agency can engage in
anti-religious hostility with impunity. The plaintiff argued that
statements by legislators (not executive branch actors) in connection
with a state law concerning education funds evidenced religious
hostility in violation of the Free Exercise Clause, citing Masterpiece
Cakeshop. The First Circuit held only that Masterpiece Cakeshop
did not provide a basis to overrule prior First Circuit precedent that
had already carefully evaluated evidence of anti-religious hostility
in connection with the school funding law and concluded that there
was none. Id. at 45-46. Accordingly, there is no split of authority
for this Court to resolve.

5

III.

The Washington Supreme Court’s decision in an
unrelated case does not establish hostility to
religion or warrant review in this case.

Finally, the Flower Shop seeks review of the Washington
Supreme Court’s decision in this case by pointing to language two
members of that Court used in concurring and dissenting opinions
in an entirely unrelated case. Supp. Br. 11-12 (citing Woods v.
Seattle’s Union Gospel Mission, 481 P.3d 1060 (Wash. 2021)). Woods
involved application of a state statutory religious exemption from
the employment provisions of the Washington Law Against
Discrimination. The Flower Shop’s theory that comments in the
concurring and dissenting opinions evince hostility to religion on the
part of the court ignores the fact that the Woods Court actually
upheld the exemption for religious employers. 481 P.3d at 1070.
The Woods Court then remanded the case for factual development to
determine whether the plaintiff, a staff attorney, was a “minister”
within the meaning of this Court’s decisions in Hosanna-Tabor
Evangelical Lutheran Church v. EEOC, 565 U.S. 171 (2012), and
Our Lady of Guadalupe School v. Morrisey-Berru, 140 S. Ct. 2049
(2020). 481 P.3d at 1070. Far from establishing hostility to religion,
the Woods decision reflects careful consideration of First
Amendment protections as this Court has interpreted them. Should
this Court disagree, it can consider whether review of Woods is
appropriate, once the state courts have rendered a final decision in
that matter. But that case surely offers no ground for granting
review here.
In short, the Flower Shop’s supplemental brief does little
more than rehash its prior arguments and almost exclusively
discusses cases already extensively discussed in its prior briefing.
And it proffers no reason to grant certiorari, whether as a GVR or
for full consideration.
Respectfully submitted,
s/Ria Tabacco Mar
Ria Tabacco Mar
Counsel for Respondents
Robert Ingersoll and Curt Freed
cc:

All Counsel of Record

6

